                     AUDIT REPORT



                 Audit of NRC’s Enforcement Program

                   OIG-08-A-17 September 26, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                                                  Audit of NRC’s Enforcement Program



EXECUTIVE SUMMARY

BACKGROUND

                  Enforcement is an integral component of NRC’s regulatory programs and
                  NRC’s Office of Enforcement (OE) has overall responsibility for the
                  oversight of the agency’s Enforcement Program. NRC’s four regional
                  offices and headquarters-based technical program offices1 are
                  responsible for implementing NRC’s Enforcement Program.

                  NRC’s enforcement process begins when issues of concern are identified
                  as potential violations primarily through region-based inspections and
                  investigations. NRC staff assess potential violations to determine a level
                  of significance by considering, among other things, actual or potential
                  safety consequences and any willful aspects of the violation.

                  NRC’s Enforcement Policy applies to all NRC licensees, various
                  categories of non-licensees,2 and individual employees of licensed and
                  non-licensed firms involved in NRC-regulated activities. Violations of
                  NRC regulations are subject to enforcement actions as either “escalated”
                  or “non-escalated”.3 Although non-escalated violations are not as
                  significant based on risk, assigning this severity level does not mean that
                  a violation has no risk significance and NRC expects licensees to correct
                  these matters. The agency issued 1,450 enforcement actions during
                  2007, the majority of which involved non-escalated enforcement actions.

PURPOSE

                  The overall objective of this audit was to determine if NRC’s Enforcement
                  Program is comprehensive and consistently implemented, and if
                  enforcement decisions are based on complete and reliable data.

RESULTS IN BRIEF

                  According to agency documents, enforcement is a vital regulatory activity
                  and NRC expects consistent agencywide implementation of its
                  Enforcement Program. However, the agency’s four regional offices
                  inconsistently implement the program in ways that can significantly impact

1
 Technical program offices include the Office of Nuclear Reactor Regulation, Office of New Reactors, Office of
Nuclear Security and Incident Response, Office of Nuclear Material Safety and Safeguards, and Office of Federal
and State Materials and Environmental Management Programs.
2
 Non-licensees include vendors, contractors, subcontractors, certificate holders (e.g., certificates of compliance,
early site permits, or standard design certificates), and the employees of these non-licensees.
3
 “Escalated” violations are designated as Severity Level I, II, and III and violations related to Red, Yellow, or White
Significance Determination Process (SDP) findings. “Non-escalated” violations are Severity Level IV or those
associated with a Green SDP finding.
                                                            i
                                                        Audit of NRC’s Enforcement Program



          the enforcement process. These differences occur because the agency
          has not issued clear and comprehensive guidance to facilitate program
          consistency. Regional inconsistencies in Enforcement Program
          implementation can leave agency enforcement decisions vulnerable to
          challenge, potentially compromising public confidence in NRC’s
          Enforcement Program.

          Furthermore, although NRC staff need complete and reliable enforcement
          information for decisionmaking and reporting purposes, complete and
          reliable enforcement data is not readily available in all cases. Data
          availability and reliability issues exist because NRC has not (1) defined a
          uniform manner for collecting or tracking non-escalated enforcement
          activity or (2) instituted a quality assurance process over non-escalated
          enforcement data used for reporting purposes. Without complete and
          reliable information, enforcement decisionmakers cannot ensure
          appropriate processing of enforcement issues, and staff may miss
          opportunities to identify precedents or trends that would be useful in
          guiding appropriate enforcement responses. Furthermore, the agency
          cannot ensure it is reporting accurately on Enforcement Program activity.

RECOMMENDATIONS

          This report makes three recommendations. A Consolidated List of
          Recommendations appears in Section IV of this report.

AGENCY COMMENTS

          An exit conference was held with NRC senior executives on September 4,
          2008. Agency officials generally agreed with the report’s findings and
          recommendations and decided not to provide formal comments. Informal
          comments on the draft report provided by the agency were incorporated
          as appropriate.




                                        ii
                                                 Audit of NRC’s Enforcement Program



ABBREVIATIONS AND ACRONYMS

       ADR     Alternative Dispute Resolution
       CY      calendar year
       EATS    Enforcement Action Tracking System
       EGM     Enforcement Guidance Memoranda
       FTE     full-time equivalents
       FY      fiscal year
       MD      management directive
       NOV     Notice of Violation
       NRC     Nuclear Regulatory Commission
       NRR     Office of Nuclear Reactor Regulation
       OE      Office of Enforcement
       OI      Office of Investigations
       OIG     Office of the Inspector General
       ROP     Reactor Oversight Process
       SDP     Significance Determination Process




                               iii
                                   Audit of NRC’s Enforcement Program




[Page intentionally left blank.]




               iv
                                                                          Audit of NRC’s Enforcement Program



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS....................................................iii

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE....................................................................................... 6

        III. FINDINGS ....................................................................................... 7

              A.      THE ENFORCEMENT PROGRAM LACKS CLEAR AND
                      COMPREHENSIVE GUIDANCE NEEDED TO ENSURE
                      CONSISTENT PROGRAM IMPLEMENTATION .................................. 7

              B.      ENFORCEMENT DECISIONS MAY NOT BE BASED ON COMPLETE
                      AND RELIABLE DATA ............................................................... 13

        IV. CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 18

        V. AGENCY COMMENTS ................................................................. 18


        APPENDICES

        A. SCOPE AND METHODOLOGY ..................................................... 19

        B. ENFORCEMENT PROCESS AND AVAILABLE SANCTIONS....... 21




                                                  v
                           Audit of NRC’s Enforcement Program




[Page intentionally left blank.]




         vi
                                                                                 Audit of NRC’s Enforcement Program



I.    BACKGROUND

                  The Nuclear Regulatory Commission (NRC) develops and implements
                  rules and regulations that govern the civilian uses of nuclear materials to
                  protect public health and safety, the environment, and the common
                  defense and security. NRC regulates commercial nuclear power plants
                  and other uses of nuclear materials
                  through licensing, inspection, and
                  enforcement of its requirements.

                  Enforcement is an integral component
                  of NRC’s regulatory programs. This
                  report focuses on the agency’s
                  Enforcement Program, which
                  could result in sanctions to licensees
                  who violate NRC regulations.



                           Enforcement Program Overview

                           Organizational Responsibilities                            Figure 1. How NRC Regulates


                  Based in headquarters, NRC’s Office of Enforcement (OE) has overall
                  responsibility for the oversight of the agency’s Enforcement Program.
                  OE’s primary Enforcement Program role is to provide programmatic and
                  implementing direction to the agency’s four regional offices and
                  headquarters-based technical program offices4 which are responsible for
                  implementing NRC’s Enforcement Program. Other NRC offices involved,
                  directly or indirectly, in the enforcement process include the Offices of
                  Investigations, the General Counsel, and Public Affairs.

                           Enforcement Guidance

                  NRC’s Enforcement Policy applies to all NRC licensees, various
                  categories of non-licensees,5 and individual employees of licensed and
                  non-licensed firms involved in NRC-regulated activities. The policy
                  includes information on NRC enforcement roles and responsibilities, the
                  agency’s statutory authority for enforcement activities, significance of
                  violations, and dispositioning (i.e., handling) of violations. Other guidance

4
 Technical program offices include the Office of Nuclear Reactor Regulation, Office of New Reactors, Office of
Nuclear Security and Incident Response, Office of Nuclear Material Safety and Safeguards, and Office of Federal
and State Materials and Environmental Management Programs.
5
 Non-licensees include vendors, contractors, subcontractors, certificate holders (e.g., certificates of compliance,
early site permits, or standard design certificates), and the employees of these non-licensees.

                                                           1
                                                                                   Audit of NRC’s Enforcement Program



                    on enforcement issues relative to NRC licensees is available in NRC’s
                    Enforcement Manual,6 Enforcement Guidance Memoranda,7 and select
                    inspection manual chapters.

                    To address known shortcomings in its enforcement related guidance,
                    NRC initiated two efforts in 2007 to revise program documents. First, OE
                    announced plans in January 2007 for a major revision of the Enforcement
                    Policy to clarify terms, remove outdated information, and include
                    information on enforcement issues not fully addressed in the current
                    policy. The last complete revision to the policy was in May 2000.

                    Later in 2007, the Office of Nuclear Reactor Regulation (NRR) identified
                    plans to study the use of certain traditional enforcement items as a more
                    integrated input into the assessment process. OE, NRR, and regional
                    representatives are working together to identify options.

                            Enforcement Process

                    NRC’s enforcement process begins when issues of concern are identified
                    as potential violations primarily through region-based inspections8 and
                    investigations. NRC staff assess potential violations to determine a level
                    of significance by considering, among other things, actual or potential
                    safety consequences and any willful9 aspects of the violation. Based on
                    this initial assessment, there are two paths available for dispositioning
                    violations: “traditional” enforcement and the Reactor Oversight Process
                    (ROP).10

                    NRC’s traditional enforcement process is used to evaluate all materials
                    and fuel cycle facility-related violations and certain reactor-related
                    violations. Specifically, traditional enforcement applies to violations that
                    may impact the NRC’s ability for oversight of licensed activities and those
                    associated with deliberate misconduct and discrimination matters for all
                    licensees, and reactor-related technical violations in areas such as
                    operator licensing, spent fuel pools, and independent spent fuel storage

6
 The Enforcement Manual provides procedures, requirements, and background information for use by staff that
develops or reviews enforcement actions to keep the actions consistent with the Enforcement Policy.
7
 OE issues Enforcement Guidance Memoranda (EGM) to provide temporary enforcement guidance, including, in
some instances, enforcement discretion when specific criteria are met. EGMs normally describe the situation that
has occurred that requires the use of such guidance, as well as the length of time the EGM will be in effect.
8
    Security-related inspections and some materials inspections are conducted by headquarters inspectors.

9
  “Willful” is defined as either deliberate misconduct or careless disregard. Willful violations are of particular concern
to NRC because its regulatory program is based on licensees and their contractors, employees, and agents acting
with integrity and communicating with candor.
10
  The ROP’s graded approach to assessment is intended to be more predictable than previous practices by linking
regulatory actions to performance criteria.
                                                            2
                                                                                Audit of NRC’s Enforcement Program



                  installations. A traditional enforcement evaluation focuses on a violation’s
                  causes and consequences and results in the assignment of a significance
                  level ranging from Severity Level I for the most significant to Severity
                  Level IV for less significant but “more than minor”11 concerns.

                  Most reactor-related technical violations are processed through the ROP’s
                  Significance Determination Process (SDP).12 The SDP is used to
                  characterize the safety significance of an inspection finding and any
                  associated enforcement action. Similar to the traditional enforcement
                  process, SDP evaluations also result in the assignment of a significance
                  level. However, the SDP assigns a color-coding of Green, White, Yellow,
                  or Red to represent progressively more safety significance, with Green the
                  lowest level of significance and Red the highest. As represented in
                  Table 1, the SDP color-coded significance categories are related
                  approximately to the traditional enforcement process and its associated
                  escalated and non-escalated categories.

       Table 1. Approximate Relationship of SDP and Traditional Enforcement
                             Significance Categories


                        Significant Determination                Traditional Enforcement
                                 Process                                 Process

                                       Minor                                   Minor

                                      Green                            Severity Level IV

                                        White                          Severity Level III

                                      Yellow                            Severity Level II

                                        Red                             Severity Level I


                             Non-Escalated Enforcement                   Escalated Enforcement




11
  “Minor” violations can be considered as those below the significance of Severity Level IV violations and violations
associated with Green inspection findings, and those having minimal safety or environmental significance.
12
   NRC developed different SDP analytical tools to assess different types of performance deficiencies. The resulting
information is then assessed and enforcement action is taken on significant inspection findings, as appropriate.

                                                          3
                                               Audit of NRC’s Enforcement Program



       Escalated and Non-Escalated Enforcement

Violations of NRC regulations are subject to either “escalated” or “non-
escalated” enforcement actions. More significant violations of NRC
regulations are candidates for escalated enforcement. According to OE’s
Calendar Year (CY) 2007 Enforcement Program Annual Report, the
agency issued 1,450 enforcement actions during 2007, the majority of
which involved non-escalated enforcement actions.

       Escalated Enforcement

Escalated enforcement includes violations designated through the
traditional enforcement process as Severity Level I, II, and III and
violations related to Red, Yellow, or White SDP findings. Escalated
severity level designations reflect the amount of regulatory concern
associated with the violations. Per agency guidance, OE staff are directly
involved in the development, processing, and tracking of all escalated
enforcement actions. Although regional administrators and office
directors have limited delegated authority to issue escalated enforcement
sanctions, OE retains responsibility for the oversight of these activities.

       Non-Escalated Enforcement

Non-escalated enforcement refers to less significant violations designated
as either Severity Level IV or associated with a Green SDP finding.
According to NRC’s Enforcement Manual, non-escalated violations are
not as significant based on risk, but assigning this severity level does not
mean that a violation has no risk significance. Non-escalated actions are
primarily handled by the regions and headquarters-based program offices.
For non-escalated matters, regional and program office managers are
authorized to determine, process, and prepare enforcement sanctions
without OE involvement but in accordance with NRC’s Enforcement Policy
and ROP guidance.

       Enforcement Program Sanctions
                                                               Figure 2
As indicated in Figure 2, for each of the             Enforcement Program Actions
last 3 years, NRC issued more than 1,400                2005      2006     2007
enforcement actions, the overwhelming
                                                     1514       1521
majority of which involved non-escalated                                   1450
                                                                 87
violations. NRC uses a graded approach               114
                                                                            118     Totals
for sanctioning escalated and non-
                                                                                    Esc
escalated violations. (Appendix B
                                                                1434                N on- Esc
provides more details on sanctions.)                 1400
                                                                           1332


For escalated enforcement violations,
NRC primarily issues Notices of Violation
                              4
                                                                                 Audit of NRC’s Enforcement Program



                 (NOV), civil penalties, or orders.13 According to OE’s annual report, NRC
                 issued 118 escalated and 1,332 non-escalated enforcement actions during
                 CY 2007.

                 The escalated sanctions included

                       77 NOVs without civil penalties.

                       18 proposed civil penalties totaling $383,200.

                       22 orders modifying, suspending, or revoking a license.

                       1 order imposing a proposed civil penalty of $3,250.

                 The agency has various sanctions available for dispositioning non-
                 escalated enforcement issues but NRC normally uses Non-Cited
                 Violations which will establish a public record of the violation but does not
                 require a licensee’s written response. Dispositioning violations in this
                 manner does not eliminate NRC's emphasis on compliance with
                 requirements or the importance of maintaining safety since licensees must
                 take steps to address corrective actions for these violations. Violations
                 identified as “minor” under the traditional approach and through the SDP
                 are not subject to formal enforcement action. Nevertheless, NRC also
                 expects licensees to correct these matters.

                           Program Resources

                  For fiscal year (FY) 2008, OE is allotted 23 full-time equivalents (FTE),
                  including 10 FTE who work primarily on Enforcement Program activities.
                  An additional eight FTE are filled by OE staff assigned to NRC’s four
                  regional offices. Per agency guidance, these regional OE staff report
                  directly to their respective regional administrators. The remaining
                  enforcement FTE work to carry out the full range of OE’s mission.14




13
   Orders can be issued to modify, suspend, or revoke a license; to cease and desist from a given practice or activity;
or take such other action as may be proper. (See Appendix B for more details.)

14
   OE’s full mission includes providing oversight, development, and management for: (1) the Enforcement Program
and the Alternative Dispute Resolution process, (2) all agency external discrimination cases, (3) the external
Allegations Program, (4) the Differing Professional Opinions Program, (5) the non-concurrence process, and (6) the
Safety Culture Initiative policy.

                                                          5
                                                       Audit of NRC’s Enforcement Program



II.   PURPOSE

         The purpose of this Office of the Inspector General (OIG) audit was to
         determine if NRC’s

             Enforcement Program is comprehensive and consistently
              implemented.

             Enforcement decisions are based on complete and reliable data.

         Appendix A provides a detailed description of the audit’s scope and
         methodology.




                                      6
                                                             Audit of NRC’s Enforcement Program



III.     FINDINGS

               A comprehensive, reliable, and consistent Enforcement Program provides
               vital support to NRC's overall safety mission of protecting public health
               and safety, the environment, and the common defense and security.
               However, program weaknesses exist that prevent the program from
               achieving its full potential as a regulatory tool. Specifically,

               A.     The Enforcement Program lacks clear and comprehensive
                      guidance needed to ensure consistent program implementation.

               B.     Enforcement decisions may not be based on complete and reliable
                      data.


       A. The Enforcement Program Lacks Clear and Comprehensive Guidance
          Needed To Ensure Consistent Program Implementation

               According to agency documents, enforcement is a vital regulatory activity
               and NRC expects consistent agencywide implementation of its
               Enforcement Program. However, the agency’s four regional offices
               inconsistently implement the program in ways that can significantly impact
               the enforcement process. These differences occur because the agency
               has not issued clear and comprehensive guidance to facilitate program
               consistency. Regional inconsistencies in Enforcement Program
               implementation can leave agency enforcement decisions vulnerable to
               challenge, potentially compromising public confidence in NRC’s
               Enforcement Program.

               NRC Expects Consistent Implementation of Its Enforcement Program

               Agency documents routinely cite an expectation of consistent
               implementation of NRC’s Enforcement Program. Specifically, OE’s
               FY 2008 Operating Plan states that the Enforcement Program ensures that
               the agency’s Enforcement Policy is applied to its reactors and materials
               licensees in a consistent manner. NRC’s Enforcement Manual states that
               regional and program offices are to ensure consistent implementation of
               the program and that staff are to ensure that proposed enforcement
               strategies are consistent with office policy, guidance, and past practice
               (i.e., precedents). Inspection Manual Chapter 0308, “Reactor Oversight
               Process (ROP) Basis Document,” specifically states that regional and
               program office management should take steps to assure that reactor
               inspector observations are placed in an appropriate context and do not
               undermine the overall effort to put inspection and enforcement efforts on a
               more objective and consistent foundation.


                                             7
                                                                              Audit of NRC’s Enforcement Program



                    Management Directive (MD) 9.1915 also cites consistent Enforcement
                   Program implementation and identifies responsibilities for ensuring the
                   expected consistency. In particular, MD 9.19 states that OE is responsible
                   for developing guidance to assist the regions with evaluating enforcement
                   cases, coordinating and reviewing region-prepared enforcement actions to
                   determine appropriateness and technical adequacy, and assessing
                   whether the regions apply enforcement policies and practices in a
                   consistent manner. To further ensure consistency, regional enforcement
                   coordinators are expected to (1) prepare or review all escalated
                   enforcement actions, and (2) monitor, audit, and assist in processing non-
                   escalated enforcement actions.

                   Regional Offices Do Not Consistently Implement NRC’s Enforcement
                   Program

                    The majority of the agency’s enforcement activity occurs in NRC’s four
                   regions, which implement the Enforcement Program differently in ways that
                   can significantly impact the enforcement process. Specifically, (1) regional
                   inspectors have varying amounts of authority to disposition enforcement
                   violations onsite and (2) regional enforcement review processes differ.

                   Regional Inspector Authority To Disposition Enforcement Onsite Varies

                   Regional inspectors have varying amounts of authority to make
                   enforcement decisions and disposition violations onsite (i.e., while in the
                   field conducting inspections). The significance level of a potential violation
                   is a key consideration for whether an inspector can pursue resolution while
                   onsite or whether the issue requires additional involvement of regional
                   managers. The Enforcement Program provides various methods for
                   inspectors to address violations of minor or low significance while in the
                   field, such as verbal discussions with the licensee at an inspection exit
                   meeting or using an NRC Form 591, Safety Inspection Report and
                   Compliance Inspection.

                    Another key factor that determines whether inspectors can disposition
                   onsite enforcement relates to the amount of authority given to individual
                   regional inspectors by their respective managers. OIG found
                   inconsistencies in regional managers’ expectations and in the amount of
                   authority given to regional inspectors to disposition enforcement in the
                   field. For example, inspectors in one region are encouraged to disposition
                   enforcement in the field (on Form 591) whenever possible. At the other
                   end of the spectrum, managers in another region expect their inspectors to
                   bring all potential violations back to the regional office for discussion prior


15
     Management Directive 9.19, Organization and Functions, Office of Enforcement, dated May 1989.

                                                         8
                                                               Audit of NRC’s Enforcement Program



             to dispositioning. According to OE management, uniform guidance is
            provided to inspection staff on the use of Form 591s; however, regional
            implementation varies.

            Differences in Regional Enforcement Review Processes Are Significant

            The process for evaluating findings and making enforcement decisions is
            not consistent across the NRC regions. Specifically, the regions use
            significantly different review processes for evaluating inspection findings to
            determine whether potential violations should be processed as escalated
            (which requires OE involvement) or non-escalated (where regions manage
            the process without headquarters’ oversight).

             Beyond inspectors and managers, other regional staff have potential roles
            in the enforcement determinations, particularly enforcement team leaders
            and their staff, Office of Investigations (OI) staff, and the regional counsels.
            OIG observed various regional methods for reviewing inspection findings
            to assess potential violations and to determine appropriate levels of
            enforcement action. The regions and, in some cases, offices within a
            region independently decide which staff are involved, and at what point, in
            the decision process. Table 2 below represents the significantly different
            regional enforcement decisionmaking processes.


Table 2. Differences in Regional Enforcement Decisionmaking Processes

            ROUTINE PARTICIPANTS                      REGION A               REGION B
   Inspector                                             X                      X
   Branch Chief                                          X                      X
   Division Director                                     X
   Managers/staff from other Regional                    X
   divisions
   Regional Administrator or Deputy                        X
   Regional Enforcement Specialists                        X
   Regional OI Investigators                               X
   Regional Counsel                                        X
  Source: OIG-generated

            In practice, the process in Region “A” involves a region-wide debriefing at
            the end of each reactor and materials inspection, to include a discussion
            of potential violations. The briefings typically involve staff filling the
            positions as noted in Table 2. Region “A” managers said that the diverse
            experiences of those present affords the best opportunity to identify
            enforcement precedents, generic issues, or performance trends, which
            results in more consistent processing of violations at the appropriate
            severity levels. For example, the early involvement of OI staff in this
                                            9
                                               Audit of NRC’s Enforcement Program



region’s weekly inspection debriefings reportedly had immediate positive
impact when violations deemed by the inspection staff as having no willful
aspects were challenged by the OI staff present. OI subsequently
identified a number of cases to be brought before a review board in order
to evaluate the willful aspects of the subject violations.

The decisionmaking processes in the other NRC regions (represented as
Region “B” above) routinely involve fewer people. Specifically, the
evaluation of potential violations and subsequent enforcement decisions
typically involve the relevant inspector and his/her respective branch chief.
In these three regions, additional communications with other regional staff,
such as division directors, regional enforcement specialists, or OI staff
occur only if the inspector and branch chief request assistance. According
to staff in these regions, enforcement precedents and consistency with
agency policy can be identified through various means including
discussions during plant status meetings and senior management
meetings, and by reviewing inspection reports.

The Enforcement Program Lacks Clear and Comprehensive
Guidance

Differences in program implementation across the regions exist because
the agency has no clear and comprehensive guidance to support
consistent implementation of the Enforcement Program agencywide,
primarily with respect to non-escalated enforcement actions. NRC’s
Enforcement Policy and inspection manual chapters provide overall
guidance for handling materials and reactor-related enforcement actions.
However, these documents do not provide specific criteria that would
ensure consistent program implementation regarding (1) authority to
disposition non-escalated enforcement violations onsite and (2)
involvement of relevant participants in enforcement decisionmaking
processes. For example, although a December 2005 OE memorandum
informed regional administrators and office directors of an agency goal to
maximize use of Form 591s to handle inspection findings, there is no
specific or uniform guidance on when inspectors can or should make
independent field-based enforcement decisions.

Although the agency initiated efforts in 2007 to add more clarification and
specification to the Enforcement Policy, Enforcement Manual, and reactor
enforcement guidance, these revisions are not yet complete.
Furthermore, the scope of the planned revisions will not necessarily
address the inconsistencies identified in this report.




                              10
                                                 Audit of NRC’s Enforcement Program



Program Inconsistencies Leave Enforcement Decisions Vulnerable to
Challenge and Compromise Public Confidence

Differences in regional practices not only challenge the agency’s
expectation of consistent implementation but can leave enforcement
decisions vulnerable to challenge and compromise the public’s confidence
in NRC’s Enforcement Program. Specifically,

    Inspectors evaluating findings onsite creates a potential for
     inappropriate dispositioning.

    Lack of relevant staff involvement in the decision process may
     result in a less than fully evaluated potential violation.

For example, a regional manager’s review of his division’s Form 591s
identified issues dispositioned by inspectors in the field that would likely
have been assigned a higher severity level and a different level of
processing had the inspectors consulted their managers. Another
example involved a regional OI supervisor whose review of completed
enforcement actions identified cases that were processed without OI
involvement because probable willful aspects were not appropriately
identified by the inspection staff.

And finally, an NRC Commissioner recently stated that consistent
implementation of NRC’s processes is needed to foster public confidence.
Throughout the audit, numerous external NRC stakeholders expressed
frustration with apparent inconsistencies in Enforcement Program
processes across the NRC regions resulting in agency enforcement
decisions that are not clearly understood. Although the stakeholders
acknowledged that each case has specific factors that likely affected
NRC’s enforcement actions, a recurring comment was the appearance
that similar violations are processed inconsistently across the NRC
regions. Therefore, the absence of clear and comprehensive agency
guidance to ensure consistent Enforcement Program implementation may
be unintentionally compromising public confidence in NRC as an effective
regulator.




                               11
                                            Audit of NRC’s Enforcement Program



Recommendation:

OIG recommends that the Executive Director for Operations:

1. Develop comprehensive agencywide guidance to clearly establish

    Expectations for inspectors and managers to independently
     disposition violations.

    Relevant participants needed for enforcement decisionmaking.




                           12
                                                        Audit of NRC’s Enforcement Program



B. Enforcement Decisions May Not Be Based on Complete and Reliable Data

        Although NRC staff need complete and reliable enforcement information
        for decisionmaking and reporting purposes, complete and reliable
        enforcement data is not readily available in all cases. Data availability
        and reliability issues exist because NRC has not (1) defined a uniform
        manner for collecting or tracking non-escalated enforcement activity or (2)
        instituted a quality assurance process over non-escalated enforcement
        data used for reporting purposes. Without complete and reliable
        information, enforcement decisionmakers cannot ensure appropriate
        processing of enforcement issues, and staff may miss opportunities to
        identify precedents or trends that would be useful in guiding appropriate
        enforcement responses. Furthermore, the agency cannot ensure it is
        reporting accurately on Enforcement Program activity.

        Enforcement Decisionmakers Need Complete, Reliable, and Readily
        Available Information

        NRC staff need complete and reliable information for enforcement
        decisionmaking and reporting purposes. NRC’s Enforcement Policy
        identifies several elements of the Enforcement Program where factoring
        all information relevant to a violation is required. The policy gives agency
        managers the flexibility to increase or decrease a violation’s severity level,
        including consideration of prior violations, based on a review of all data
        relative to the violation. Further, a recent OE annual report identified
        effective tracking of enforcement actions as a key Enforcement Program
        goal.

        The collection of escalated and non-escalated enforcement data also is
        needed to satisfy Enforcement Program reporting requirements.
        Specifically, OE is responsible for preparing an assortment of periodic
        reports on Enforcement Program activities to external and internal entities
        such as Congress and the Commission. In particular, OE is required to
        report on non-escalated enforcement activity in

            Semiannual reports to Congress.

            Semiannual reviews to regional division directors and headquarters
             office directors.

            Annual enforcement summary reports to the Commission.

            Annual performance measure updates.




                                      13
                                                                              Audit of NRC’s Enforcement Program



                 Federal guidelines16 also direct that agency programs should have
                 appropriate controls in place to ensure complete, reliable, and readily
                 available information for management decisionmaking.

                 Complete and Reliable Information Is Not Readily Available

                 Complete and reliable Enforcement Program data is not readily available
                 to NRC staff to inform enforcement decisionmaking. In particular,

                             Non-escalated enforcement data is not uniformly collected.

                             Non-escalated data that is collected is of questionable reliability.

                 Non-Escalated Enforcement Data Is Not Uniformly Collected or
                 Verified

                 NRC’s Enforcement Program does not provide for the uniform collection
                 of available information on the majority of the agency’s enforcement
                 activities, which are non-escalated. Non-escalated enforcement data is
                 not collected or tracked in any uniform manner even though this level of
                 activity constitutes 90 percent or more of the 1,400+ enforcement actions
                 NRC issues per year. For example, although there is guidance for
                 tracking power reactor related non-escalated data through the Reactor
                 Program System, implementation throughout the regions is inconsistent.
                 Figures 3 through 5 reflect that the majority of NRC’s enforcement activity
                 over the past 3 years was non-escalated (i.e., Severity Level IV violations
                 or violations associated with Green SDP findings).17


           CY 2005                                 CY 2006                                CY 2007
       Actual Percentage                       Actual Percentage                      Actual Percentage

        8%                                      6%                                      8%


                           Non Esc                                 Non Esc                                Non Esc
                           Esc                                     Esc                                    Esc

                92%                                     94%                                     92%

          Figure 3                                Figure 4                               Figure 5




16
  Office of Management and Budget Circular No. A-123, Management Accountability and Control, and the
Government Accountability Office’s GAO/AIMB-002-21.3.1, Standards for Internal Controls in the Federal
Government.
17
  Non-escalated actions comprised 1,400 of the 1,514 total actions in CY 2005; 1,434 of the 1,521 actions in
CY 2006; and 1,332 of the 1,450 actions in CY 2007.
                                                        14
                                                                              Audit of NRC’s Enforcement Program



                 Agency managers acknowledge that non-escalated enforcement data can
                 help to identify precedents and performance trends, and it is needed to
                 prepare input for reporting purposes. Therefore, enforcement and
                 inspection staff make efforts to collect various pieces of non-escalated
                 information. Individual organizations within NRC headquarters and the
                 four regions decide what non-escalated enforcement data to collect based
                 on their individual programmatic needs and the different offices use
                 varying means to capture and track the information. The collection
                 methods range from maintaining information in hardcopy form to
                 individually-developed data spreadsheets and other types of electronic
                 files. However, there is no assurance that data is uniformly collected or
                 that what is collected is reliable. Although staff conduct periodic reviews
                 of non-escalated enforcement actions, results of these reviews typically
                 focus on the number of violations rather than the accuracy of the
                 information.

                 The Enforcement Action Tracking System (EATS), the primary centralized
                 database of Enforcement Program information, does not systematically
                 collect non-escalated enforcement information. The agency is currently in
                 the process of implementing a new and updated EATS; however,
                 according to OE managers, there are no plans for this system to routinely
                 capture non-escalated enforcement information.

                 Enforcement Program Lacks Uniform Data Collection Requirements
                 and a Quality Assurance Process

                 NRC’s Enforcement Program lacks the controls needed to ensure that
                 complete and reliable enforcement data is readily available. Specifically,
                 the Enforcement Program lacks (1) uniform data collection requirements
                 for non-escalated data and (2) an organized quality assurance review of
                 non-escalated data compiled for reporting purposes.

                 Data Collection Requirements Not Defined

                 Enforcement Program participants do not have access to a complete
                 universe of known data because a methodology for the systematic
                 collection of all available enforcement information has not been defined.
                 Specifically, the Enforcement Program has no uniform data collection
                 requirements that pertain to minor and non-escalated18 enforcement
                 actions. NRC’s Enforcement Manual and reactor guidance (which
                 includes regional specific guidance) do not require tracking of most minor
                 and non-escalated information because of their low safety significance.
                 Yet, in apparent contrast, these same documents state that information
                 regarding these low level violations can be used by NRC staff for


18
   The non-escalated enforcement actions required to be tracked include cases involving: willfulness, certain NOVs,
individuals, potential escalation, or related to a proposed escalated action.
                                                        15
                                                Audit of NRC’s Enforcement Program



aggregation and discretion purposes and that these issues must be
addressed by NRC licensees. Further, in certain cases, NRC inspectors
are expected to verify that the licensees’ corrective actions were effective.

Quality Assurance Review Process Is Missing

The reliability of information related to non-escalated enforcement actions
compiled and submitted for reporting purposes is questionable because
NRC has not instituted a comprehensive quality assurance review
process over the information. Agency officials, in both the regions and
headquarters, pointed out that some quality assurance checks do occur
for enforcement actions through the routine review and approval process.
However, the Enforcement Program does not have an established
process designed to assure the quality of the non-escalated enforcement
data submitted for inclusion in reports to internal and external NRC
stakeholders.

Enforcement Decisions May Not Be Fully Informed and Program
Reporting May Not Be Accurate

Without timely consideration of complete and reliable information,
enforcement decisionmakers cannot ensure appropriate responses to
NRC enforcement issues or an accurate representation of Enforcement
Program activities.

Enforcement Decisions May Not Be Fully Informed

Without the systematic collection of non-escalated enforcement
information, managers will not have timely access to all relevant factors
regarding repeat violations, precedents, or trends in declining licensee
performance. Such factors could impact the decisions regarding the
proper level of enforcement action NRC should pursue. Regional and OE
managers also acknowledged that absent a readily available collection of
enforcement data, it can be difficult and time consuming to identify
detailed information relative to lower level enforcement activities. This
information is needed to assess whether licensees met the requirements
of the enforcement actions. In some cases, developing this information
depends on staff members’ individual recollections of violation details.

Accurate Reporting May Be Compromised

Without an established and organized quality assurance process, the
accuracy of the information used to report on the full range of
Enforcement Program activities may be compromised. Specifically, there
is no assurance that the agency accurately depicts non-escalated
enforcement actions in required reports. Agency staff acknowledge that
there is no systematic verification that the non-escalated statistics
                              16
                                             Audit of NRC’s Enforcement Program



compiled and submitted to OE by individual offices are accurate.
Nonetheless, this information serves as the basis for OE reports to
Congress and the Commission on Enforcement Program activity and
effectiveness.

Recommendations:

OIG recommends that the Executive Director for Operations:

2. Define systematic data collection requirements for non-escalated
   enforcement actions.

3. Develop and implement a quality assurance process that ensures that
   collected enforcement data is accurate and complete.




                            17
                                                       Audit of NRC’s Enforcement Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1.   Develop comprehensive agencywide guidance to clearly establish

                Expectations for inspectors and managers to independently
                 disposition violations.

                Relevant participants needed for enforcement decisionmaking.

          2. Define systematic data collection requirements for non-escalated
             enforcement actions.

          3. Develop and implement a quality assurance process that ensures that
             collected enforcement data is accurate and complete.


V.    AGENCY COMMENTS

          An exit conference was held with NRC senior executives on September 4,
          2008. Agency officials generally agreed with the report’s findings and
          recommendations and decided not to provide formal comments. Informal
          comments on the draft report provided by the agency were incorporated as
          appropriate.




                                       18
                                                    Audit of NRC’s Enforcement Program


                                                                           Appendix A
SCOPE AND METHODOLOGY

       The purpose of this audit was to determine if NRC’s

           Enforcement Program is comprehensive and consistently
            implemented.

           Enforcement decisions are based on complete and reliable data.

       To address the audit objectives, OIG reviewed relevant management controls,
       internal and external enforcement-related documentation, and Federal statutes,
       including reviews of:

           The Atomic Energy Act.

           NRC’s Enforcement Policy and Enforcement Manual.

           Related OIG reports published between 1989 and 2008.

           Regional enforcement guidance.

           Inspection Manual Chapters.

           Office of Management and Budget and Government Accountability
            Office Standards for Internal Control in the Federal Government.

       Auditors interviewed approximately 120 members of NRC and the public regarding
       the NRC’s Enforcement Program. Interviewees included:

           NRC senior managers and staff from:
            - Headquarters, Rockville, Maryland
            - Region I, King of Prussia, Pennsylvania
            - Region II, Atlanta, Georgia
            - Region III, Lisle, Illinois
            - Region IV, Arlington, Texas.

           Industry representatives.

           Intervener groups and other external stakeholders.

       This audit progressed in two phases. OIG began its review of the overall
       NRC Enforcement Program in March 2007 and promptly learned that the
       Office of Enforcement planned to complete a major revision of the
       Enforcement Policy that would address and promote expansion of NRC’s
       newly developed ADR program. Because significant weaknesses in the
       ADR program were identified early in OIG’s review, the general audit was
                                   19
                                                                           Audit of NRC’s Enforcement Program



                 suspended to allow auditors to focus on aspects of the ADR program. OIG
                 subsequently issued two memorandum reports of ADR findings in
                 December 2007 and March 200819 so that the agency could take
                 corrective actions prior to OE’s late 2008 estimated completion date for
                 the policy revisions. Fieldwork on the audit of the overall Enforcement
                 Program resumed full-time in late November 2007 and continued through
                 June 2008 to determine the most recent agency activities.

                 OIG conducted this audit in accordance with generally accepted
                 Government auditing standards. Those standards require that we plan
                 and perform the audit to obtain sufficient, appropriate evidence to provide
                 a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable
                 basis for our findings and conclusions based on our audit objectives.
                 Major contributors to this report were Sherri Miotla, Team Leader;
                 Catherine Colleli, Audit Manager; James McGaughey, Senior
                 Management Analyst; Rebecca Underhill, Senior Auditor; Timothy Wilson,
                 Management Analyst; Andrea Ferkile, Management Analyst; and Daniel
                 Livermore, former OIG Technical Advisor.




19
 Memorandum Report, OIG-08-A-03, Audit of NRC's Alternative Dispute Resolution Program, dated December 14,
2007, and Memorandum Report, OIG-08-A-08, Audit of NRC’s Contract for Alternative Dispute Resolution Services,
dated March 26, 2008.
                                                      20
                                                         Audit of NRC’s Enforcement Program


                                                                               Appendix B
ENFORCEMENT PROCESS AND AVAILABLE SANCTIONS

        The NRC's enforcement program is based on the recognition that
        violations occur in a variety of activities and have varying levels of
        significance. The manner in which the NRC processes a violation is
        intended to reflect the significance of the violation and the circumstances
        involved. After a violation is identified, the staff assesses the significance
        of a violation by considering:

            Actual safety consequences.

            Potential safety consequences.

            Potential for impacting the NRC's ability to perform its regulatory
             function.

            Any willful aspects of the violation.

        Violations are either:

            Assigned a severity level, ranging from Severity Level IV for those
               of more than minor concern to Severity Level I for the most
               significant.

            Associated with findings assessed through the ROP's SDP that are
               assigned a color of Green, White, Yellow, or Red based on
               increasing risk significance.

        The Commission recognizes that there are violations of minor safety or
        environmental concern that are below Severity Level IV violations and
        below violations associated with Green SDP findings. Although minor
        violations must be corrected, given their limited risk significance, they are
        not subject to enforcement action and are not normally described in
        inspection reports. All other violations are documented and may be
        dispositioned as Non-Cited Violations, cited in NOVs, or issued in
        conjunction with civil penalties or various types of orders. The NRC may
        also choose to exercise discretion and refrain from issuing enforcement
        action.




                                       21
                                                            Audit of NRC’s Enforcement Program



The following diagram is a graphical representation of the NRC's graded approach for
processing violations:




Source: NRC

              For escalated violations, NRC primarily uses any of the following three
              sanctions:

                  An NOV identifies a requirement and how it was violated,
                    formalizes a violation pursuant to 10 CFR 2.201, and normally
                    requires a written response from the licensee. Under certain
                    circumstances, NOVs can be used for non-escalated violations and
                    an NRC Form 591 may be used as an NOV for materials licensee
                    violations.

                  A civil penalty is a monetary fine issued under authority of Section
                    234 of the Atomic Energy Act which provides for penalties of up to
                    $100,000 per violation per day. The Debt Collection Improvement
                    Act of 1996 adjusted the limit of a civil penalty to $130,000 per
                    violation per day.

                  Orders can be issued to modify, suspend, or revoke a license; to
                    cease and desist from a given practice or activity; or take such
                    other action as may be proper. Orders may be issued in lieu of, or
                    in addition to civil penalties. The NRC may also issue an order to
                    impose a civil penalty where a licensee refuses to pay a civil
                                           22
                                               Audit of NRC’s Enforcement Program



      penalty. In addition, the NRC may issue an order to an unlicensed
      person (including vendors) where the NRC has identified deliberate
      misconduct.

Severity Level IV violations and violations related to Green SDP findings
are addressed within the “non-escalated” enforcement process. Although
NOVs can be used as discussed above, the primary sanction for non-
escalated violations is the Non-Cited Violation.

    Non-Cited Violations are documented in inspection reports (or
      inspection records for some materials licensees) to establish public
      records of the violations, but are not cited in NOVs which normally
      require written responses from licensees. Dispositioning violations
      in this manner does not eliminate the NRC's emphasis on
      compliance with requirements nor the importance of maintaining
      safety. Licensees are still responsible for maintaining safety and
      compliance and must take steps to address corrective actions for
      these violations.

In addition to Non-Cited Violations, NOVs, civil penalties, and orders, the
NRC also uses administrative actions, such as Notices of Deviation,
Notices of Nonconformance, Confirmatory Action Letters, Letters of
Reprimand, and Demands for Information to supplement its Enforcement
Program. The NRC expects licensees and contractors to adhere to any
obligations and commitments resulting from these actions and will not
hesitate to issue appropriate orders to ensure that these obligations and
commitments are met.

    Notices of Deviation are written notices describing a licensee's
      failure to satisfy a commitment where the commitment involved has
      not been made a legally binding requirement. A Notice of Deviation
      requests that a licensee provide a written explanation or statement
      describing corrective steps taken (or planned), the results achieved,
      and the date when corrective action will be completed.

    Notices of Nonconformance are written notices describing
      contractors' failures to meet commitments which have not been
      made legally binding requirements by NRC. Notices of
      Nonconformances request that non-licensees provide written
      explanations or statements describing corrective steps (taken or
      planned), the results achieved, the dates when corrective actions
      will be completed, and measures taken to preclude recurrence.

    Confirmatory Action Letters are letters confirming a licensee's or
      contractor's agreement to take certain actions to remove significant
      concerns about health and safety, safeguards, or the environment.

                              23
                                            Audit of NRC’s Enforcement Program



 Letters of Reprimand are letters addressed to individuals subject to
   Commission jurisdiction identifying a significant deficiency in their
   performance of licensed activities.

 Demands for Information are demands for information from
   licensees or other persons for the purpose of enabling the NRC to
   determine whether an order or other enforcement action should be
   issued.




                          24
